                         Evaluation of
        The Employment and Training Administration’s
Awards Process for Welfare-to-Work Competitive Grants (Round 1)



                      U.S. Department of Labor
                   Office of the Inspector General
           Office of Analysis, Complaints and Evaluations


                   Report No. 2E-03-386-0001
                         March 29,2000
                                                     Table of Contents

Executive Summary .......................................................................................................ii

Purpose ..........................................................................................................................1

Background .....................................................................................................................1

Scope and Methodology .................................................................................................3

Findings .........................................................................................................................5

                      1.         The Employment and Training Administration(ETA) applied the
                                 criteria listed in the Solicitation of Grant Application (SGA) to
                                 evaluate grant applications, but the absence of the “Work- First”
                                 requirement and lack of definition of the term “innovation” are
                                 important weaknesses in the SGA criteria. ...................................5

                      2.         ETA carried out the grant selection timely, but we have concerns
                                 about other due diligence aspects of the process. These concerns
                                 are the inefficiencies in the pre-award clearance process and
                                 deficiencies in the record storage and tracking system. ................7

                      3.         In accordance with Federal regulations, grantees were not allowed to
                                 correct deficiencies that were identified in their applications before
                                 federal funds were awarded. ETA did, as permitted, ask for
                                 clarification of non-programmatic information. ................................8

Recommendations/Contributors......................................................................................9

Appendices

           A.         Process map of Welfare-to-Work Competitive Grant Round One based on
                      documentation provided by ETA

           B.         Definitions of criteria in the SGA

           C.         Office of Grants and Contracts Management/Division of Federal Assistance
                      (OGCM/DFA) Welfare-to-Work Pre-Screen Review Sheet

           D.         Acronyms

           E.         Glossary



                                                                        i
F.   Complete Agency Response




                                ii
                               Executive Summary

The Office of Inspector General (OIG) conducted this evaluation in response to a request
from Senator Christopher S. Bond expressing concerns regarding the awarding of
Welfare-to-Work (WtW) competitive grants. Specifically, the objective of our review were
to:

      A.     Assess the competitive grant-making process developed and implemented
             by the Department of Labor (DOL), including an examination of its due
             diligence review, and

      B.     Determine whether or not the Department ensured that the grantees
             corrected each of the deficiencies identified before federal funds were
             awarded.

Findings

The agency that administers the Department of Labor’s Welfare-to-Work Competitive
Grant selection process is the Office of Grants and Contracts Management/Division of
Federal Assistance (OGCM/DFA) in the Employment and Training Administration (ETA).
Our findings on the grant selection process are as follows:

      1.     ETA applied the criteria listed in the Solicitation of Grant Application to
             evaluate grant applications, but the absence of the “Work-First” requirement
             and lack of definition of the term “innovation” are important weaknesses in
             the SGA criteria.

      2.     ETA carried out the grant selection timely, but we have concerns about other
             due diligence aspects of the process. These concerns are the inefficiencies
             in the pre-award clearance process and deficiencies in the record storage
             and tracking system.

      3.     In accordance with Federal regulations, grantees were not allowed to correct
             deficiencies that were identified in their applications before federal funds
             were awarded. ETA did, as permitted, ask for clarification of non-
             programmatic information.

Recommendations

We are making recommendations to assist ETA in improving future Pre-Award Grant
selection processes.



                                            iii
       1.     To avoid any possible weaknesses in the SGA, we recommend that, in the
              future, the Office of Welfare-to-Work include all welfare-to-work legislative
              requirements in the grant criteria and that the criteria be clearly defined.

       2.     To safeguard against awarding grants prior to receiving full pre-clearance
              responsibility reviews, we recommend that OGCM/DFA work with the
              Special Program Service Unit to set up a process that will ensure up to date
              information on applicant eligibility.

       3.     To avoid potential problems with records management, we recommend that
              OGCM/DFA implement a record storage and tracking system with adequate
              controls. This system should include the following items:
               a)    Retention of the notes of the entire technical review panel
               b)    An electronic tracking system that is capable of allowing multiple
                     users to locate specific application files.

Agency Response and OIG Conclusion

The agency’s response to the OIG’s draft final report agrees that the grant making process
for the Welfare-to-Work Competitive Grant Round One has weaknesses in the Solicitation
of Grant Award, Pre-Award Clearance Process and OGCM/DFA record storage and
tracking systems and several steps that have been implemented by ETA to the issues
raised in the report. The response also expresses that “the process was conducted in a
fair and impartial manner and did not result in the award of grants to non-competitive,
unqualified applicants.”

The OIG does not believe that ETA has adequately addressed the important issues raised
in the draft report. Due to an insufficient response, we consider all recommendations
provided to ETA as unresolved. Although ETA has provided us with a good-faith listing of
potential changes, a commitment to establish a clear and sufficient set of internal controls
that will correct the deficiencies listed in the draft report has not been presented.
Furthermore, the OIG cannot confirm ETA’s assertion that “the process was conducted in a
fair and impartial manner and did not result in the award of grants to non-competitive,
unqualified applicants”. This assertion was outside this evaluation’s scope. ETA’s
complete response can be found in Appendix F.




                                             1
Purpose

    The Office of Inspector General conducted this evaluation in response to a request
    from Senator Christopher S. Bond expressing concerns regarding the awarding of
    Welfare-to-Work (WtW) competitive grants. Specifically, the objective of our review
    were to:

    1.     Assess the competitive grant-making process developed and implemented
           by the Department of Labor, including an examination of its due diligence
           review, and

    2.     Determine whether or not the DOL ensured that the grantees corrected each
           of the deficiencies identified before federal funds were awarded.

    First, to assess the competitive grant-making process developed and implemented
    by the Department, including an examination of its due diligence review, we
    answered the following questions:

           •      What criteria did the Employment and Training Administration (ETA)
                  use to evaluate the WtW competitive grants?

           •      Did ETA grant review staff complete the grant review with due
                  diligence?

    Second, to determine whether or not the DOL ensured that the grantees corrected
    each of the deficiencies identified before federal funds were awarded, we
    answered the following question:

           •      Did ETA ensure that the grantees correct any of the deficiencies
                  identified in their applications before federal funds were awarded?

    This evaluation provides an understanding of the pre-award grant process as
    followed by ETA in the WtW Round One Competitive Grant Selection. Our analysis
    supports the Secretary’s strategic goal two of “Economic Security of Workers and
    Families,” because the purpose of the WtW Competitive Grant is to prepare
    recipients of Temporary Aid to Needy Families (TANF) to become economically
    self-sufficient.

Background




                                         2
Under the Balanced Budget Act of 19971, the Secretary of Labor is authorized to
provide WtW grant funds to welfare-to-work States2 and local communities to move
the TANF recipients who are least job ready into unsubsidized employment3. The
competitive grant process allows private and public agencies to create
opportunities for TANF recipients to gain access to the labor market by placing
them into fields that have a shortage of low-skill jobs4. The policy objective of the
WtW competitive grant process is “Work First”. The primary focus of “Work First” is
based on the TANF concept of placing individuals in employment activities. The
“Work First” approach recognizes that individuals may be provided, when
appropriate, with educational and skill based training that is job related. Other
services may also be provided to ensure lasting employment and the achievement
of self-sufficiency.

The WtW competitive grant program is administrated by Office of Grants and
Contracts Management/Division of Federal Assistance (OGCM/DFA) in ETA. The
OGCM/DFA implements the process for the program specifications in the
Solicitation of Grant Application (SGA), grant selection timetables, and evaluation
of the grant applications. The Office of Welfare-to-Work is responsible for both
legislative interpretation and program creation of the WtW program.

The first round of competitive grants, announced May 27, 1998, totaled $199
million. These funds were awarded to 51 competitive grantees.

                 Welfare-to-Work Competitive Grant
                 Round 1:At A Glance
                 Total Amount Awarded*:                  $199,000,000.00
                 Average Grant Award:                    $3,901,960.78
                                                              Totals       Percentage
                 Number of Grant Applications                  621            100%
                 Received**:
                 Number of Grant Applications Non-             355            57%
                 Competitive**:
                 Number of Grant Applications Non-              40            6%
                 Responsive**:
                 Number of Grant Applications Deemed           226            36%
                 Competitive**:
                 Number of Grant Applications                   51            8%
                 Awarded*:




1
    H.R. 2015 sec.5001

2
    Sec. (a) (II) (B) (i).

3
    Sec. (a) (II) (B) (i) (I).

4
    Id .


                                                     3
                        ( *- Information is based on the Welfare-to-Work Competitive Grant
                           Post Award Survey Results. Report Number: 05-99-008-03-
                        386. Issued March 24, 1999.)
                        (**- Information is based on documents provided to the OIG by
                           ETA/OGCM/DFA. See Appendix E for terms definitions.)
Scope

    This evaluation limited its focus to the pre-award competitive grant making process
    administered by the Office of Grant and Contract Management, Division of Federal
    Assistance. Our evaluation did not include an examination of grantee operations.
    An Office of Inspector General (OIG) report, issued March 24, 1999, focused on and
    examined the programmatic and financial operational readiness of first round grant
    recipients (Welfare-to-Work Competitive Grant Post Award Survey Results, Report
    Number: 05-99-008-03-386). Although the scope and objective of the prior OIG
    audit was different from this evaluation, we found fault in one area that the prior OIG
    audit also found weaknesses, namely, the application of the work-first requirement.

Methodology

    To answer the questions of this review, initially we obtained information through
    interviews of ETA staff and reviews of the Solicitation for Grant Application for
    Welfare-to-Work Round One 5, the Procedural Guidance For Panel Review For
    Solicitation For Grant Application6 and the WtW Competitive Proposal Review and
    Selection Process7 (see Appendix A for process map). We later reviewed other
    documentation listed below to expand the analytical basis of our findings. The
    methodology section is broken into the following steps.

    1.        Review of Federal Polices and Interviews of ETA Staff

              We outlined the grant selection process by interviewing ETA staff and
              examining the following grant related documents: a) the SGA, b) the Interim
              Final Regulation of the Welfare-to-Work program, c) the Procedural
              Guidance For Panel Review For Solicitation For Grant Application, d)
              Employment and Training Order Number 2-87 concerning procurement
              management, and e) the General Records Schedule 3 for Procurement,
              Supply and Grant Records.



    5
        62 Federal Register 67902-67918 (December 30, 1997).

    6
     Procedural Guidance For Panel Review For Solicitation For Grant Application. Provided by
    ETA/OGCM/DFA Staff

    7
        WtW Competitive Proposal Review and Selection Process. Provided by ETA/OGCM/DFA Staff.


                                                  4
These documents form the foundation for our analysis and shaped the
findings and recommendations given to ETA concerning both the grant
selection process and records maintenance.




                             5
    2.     Review of Solicitation of Grant Application

           Our review of the SGA identified five weighted criteria (Relative Need for
           Assistance, Innovation, Outcomes, Local Collaboration and Sustainability,
           Demonstrated Capacity) and the “Areas of Special Interest”. We used this
           information to identify structural weaknesses within the SGA.

    3.     Statistical Sampling of Awarded and Non-Competitive Grant
           Applications

           We used a statistical sampling method to identify grant applications for
           review. Using a proportional allocation formula with a weighted design, we
           generated two random samples of files (the first sample contained non-
           competitive applicants and the second contained awarded applications).

           OGCM/DFA received a total of 621 grant applications in Round One. The
           grant applications were classified as either non-responsive, non-
           competitive, or competitive (see Appendix E for term definitions). The
           following is the number of applications that were placed in each category: 40
           applications were non-responsive, 355 applications were non-competitive,
           and 226 application were competitive. Of the 226 competitive grant
           applications, 51 grants were awarded.

           The first sample consisted of 64 non-competitive applications representing
           the five regions into which ETA divided the U.S. (Four geographical regions
           and a region that considered applicants with multiple sites. These multiple
           sites applicants operate facilities in several different states or geographical
           regions.) This initial sample was chosen from a universe of 355 with a 95%
           statistical confidence level.

           Initially, the second sample consisted of 22 awarded applications; however,
           four grants were added to make a total of 26 applications. We reviewed
           these additional applications to help answer questions that surfaced during
           this review. The second sample also used a 95% statistical confidence level
           with a universe of 51.

           We used the sampled applications to identify what information OGCM/DFA
           utilized to evaluate the grant applications (SGA criteria and equitable point
           distribution) and to determine OGCM/DFA processes and internal controls.

           We conducted our review in accordance with the Quality Standards for
           Inspections published by the President’s Council on Integrity and Efficiency.
           We did not independently verify the documentation provided to us by ETA.
Findings


                                           6
          1.         ETA applied the criteria listed in the SGA to evaluate grant
                     applications, but the absence of the “Work- First” requirement and
                     lack of definition of the term “innovation” are important weaknesses
                     in the SGA criteria.

                     The following table shows the five criteria in the SGA with their respective
                     scoring values.

                                   The SGA Criteria and Point Distribution

                                                     Criteria                                                  Points

1.   Related Need for Assistance                                                                                20

2.   Innovation                                                                                                 20

3.   Outcomes                                                                                                   25

        3a. Quality of proposed employment outcomes                                                              —

        3b. The extent to which the proposed plan of services responds to identified needs                       —

        3c. The barriers faced by proposed participants                                                          —

        3d. The conditions in local area as well as the likelihood that proposed service plan will result in     —
           the proposed outcome

        3e. Reasonableness of the level of investment in relation to the proposed outcome                        —

4.   Local Collaboration and Sustainability                                                                     25

5.   Demonstrated Capability                                                                                    10

Total                                                                                                           100
              (Please see Appendix B for a brief summary of each of the criteria.)


          •          OGCM/DFA correctly used the “Areas of Special Interest” to designate
                     grant funds.

                     OGCM/DFA used the “Areas of Special Interest” as a mechanism to
                     delineate the type of program the applicant will preform if awarded grant
                     funds. This information was not used as a part of the procedure to disqualify
                     an applicant from the competitive process. The SGA mentions “Areas of
                     Special Interest”,on page 67903,(per our interpretation of the SGA) as
                     strongly suggested strategies to be used by applicants. This suggestion
                     could be interpreted by applicants as information that could garner them
                     extra points in the competitive process. We could not find any evidence that
                     these indicators were used as criteria for final point distribution. The
                     Welfare-to-Work Pre-Screen Review Sheet, in Appendix C, shows that the
                     “Areas of Special Interest” did not receive any official scoring by

                                                                  7
          OGCM/DFA grant evaluation staff.

                 Areas of Special Interest

                 Geographic Distributions (70% urban/30% rural)

                 70% Hardest to Employ workers

                 30% Welfare Recipients associated with long term welfare dependency

                 Other Special Interest Needs (Disabilities, Mental Health & Substance Abuse,
                 Transportation, Housing Issues, Rural Issues, Noncustodial Parents, and
                 Employer Strategies)


                ( Note: The above chart is based on the information provided in the
                  Solicitation of Grant Application on p.67903)


    • OGCM/DFA used no further criteria in assessing the grant applications.

          We found that the coordination between the DOL and Department of Health
          and Human Services (HHS) in the grant review process proceeded
          according to the method prescribed in the SGA. Grant applications were
          forwarded to HHS based on grantee choice and whether it was deemed
          most competitive by OGCM/DFA.

     •    Absence of “Work-First” requirement and lack of definition of the term
          “innovation” are important weaknesses in the SGA criteria.

          This is an area that lacked clarity and could be misinterpreted by grantees.
          Although “Work First” principles were mentioned in the Personal
          Responsibility and Work Opportunity Reconciliation Act (PRWORA)
          legislation8, the Welfare-to-Work Interim Final Rule 9, and the Solicitation for
          Grant Application in the Program Scope and Funding section on page
          67902, it was not listed as one of the five weighted criteria. In many of the
          non-competitive grant applications we reviewed, references to the lack of
          “Work First” related activities in the grant application were cited as a general
          weakness. We believe that the way the SGA was written, it would be easy for
          a grant applicant to focus on the five criteria listed and leave out narrative
          information that identifies how the grantee’s program would highlight “Work
          First” activities.

          The definition of “Innovation” did not provide us with enough information to


8
    H.R. 3734

9
    Federal Register: November 18, 1997; Volume 62, Number 222, pgs. 60587-61613.


                                                    8
identify objective performance measures (further discussion of this is in
Appendix B). Two readers could reasonably disagree on the relative merit of
a proposed program along this dimension.




                              9
      We believe that including the “Work First” regulation and a clear definition of
      “Innovation” could have resulted in a more complete and less ambiguous
      SGA.

      The Office of Welfare-to-Work told us that in Rounds 2 and 3 they
      incorporated subsequent remedial measures to clarify the SGA.

2.    ETA carried out the grant selection timely, but we have concerns
      about other due diligence aspects of the process. These concerns
      are the inefficiencies in the pre-award clearance process and
      deficiencies in the record storage and tracking system.

• ETA’s completion of the grant selection process in 104 days, less than the
  projected 120-day time period, is commendable.

      We found that OGCM/DFA completed the grant selection process in 104
      working days. It is not uncommon for any given grant selection process to
      take up to 120 working days to complete.

•     ETA’s process for ensuring that potential grantees have no history of
      engaging in fraud, waste and abuse of Federal funds is insufficient.

      We found no established procedures that could assist the DOL in identifying
      grantees that may have administrative problems with other Federal
      agencies. Regarding external information, it is possible for other Federal
      agencies to be conducting an investigation that may disqualify a potential
      DOL grantee without ETA’s knowledge.

      Internally, we found that information passed between divisions and agencies
      may be insufficient. The current system allows final decisions to be made at
      the discretion of the Grant Officer. During our evaluation, we found that pre-
      clearance information was received by the grant officer after the grants were
      awarded. This current system of controls may be insufficient because it does
      not adequately safeguard ETA from issuing grants prior to receiving full pre-
      clearance responsibility reviews on applicants.

      During the pre-clearance responsibility review, OGCM/DFA requests ETA
      Special Program Service Unit (SPSU) to create an applicant profile. SPSU
      solicits information from the Office of the Comptroller; ETA Division of
      Accounting/Debt Collection Unit, OGCM/ Division of Resolution and Appeal
      (DRA); and the Office of Inspector General to gain information about
      grantees whose applications have been deemed most competitive. Although
      these DOL agencies provide information for the applicant profile to SPSU,

                                     10
        some of the most needed information is in the public domain (i.e. current
        General Service Administration debarment listing). OGCM/DFA and/or
        SPSU can access this information directly.

    •   OGCM/DFA’s record storage and record tracking system is deficient and
        lacks controls.

        We found that OGCM/DFA staff had difficulty locating the files we requested
        and seemed to be confused as to where the records were stored. Because
        critical information resides with individuals rather than systems, document
        retrieval depends on the presence in the office of specific individuals.
        Likewise, no electronic record tracking system capable of identifying who
        may have specific grant files exists. This can cause problems such as those
        we encountered, when another entity needs access to a file in the absence
        of the employee responsible for it. We confirmed our observations through
        interviews with ETA staff, who told us that ETA, as a whole, has not
        implemented a storage and tracking system. This deficiency caused us to
        experience a three-week delay in obtaining relevant documents from
        OGCM/DFA.

        Based on our examination of grant files and interviews with OGCM/DFA
        staff, we found grant review panel notes lacked sufficient detail. The files we
        reviewed only had notes from the review panel chairperson reflecting his (or
        her) thoughts on selection (based on discussions held with the entire review
        panel during grant evaluation). Notes from the other members of the review
        panel were not included. The summary notes reviewed were limited in
        providing information to help applicants improve grant applications for
        subsequent rounds.

3.      In accordance with Federal regulations, grantees were not allowed to
        correct deficiencies that were identified in their applications before
        federal funds were awarded. ETA did, as permitted, ask for
        clarification of non-programmatic information.

•      Based on the information provided by ETA, grantees are not allowed to
  make corrections to grant applications once they have been received by
OGCM/DFA for the selection process. During the negotiation process,
       OGCM/DFA, through the Grant Officer, may ask for clarification of non-
  programmatic information. Based on our analysis, we found no evidence
that the process allowed one grantee to have an unfair advantage over
another. We were told that grantees, in the negotiation process, were
selected based on their most competitive status (see Appendix E).



                                       11
Recommendations

    We are making recommendations to assist ETA in improving future Pre-Award
    Grant selection processes.

     1.   To avoid any possible weaknesses in the SGA, we recommend that in the
          future, the Office of Welfare-to-Work include all welfare-to-work legislative
          requirements in the grant criteria and that the criteria be clearly defined.

          Agency Response

          “The Office of Welfare-to-Work (OWtW) was responsible for writing the
          Solicitations. After its experience with the first solicitation (upon which the
          OIG report focuses) and the second, which overlapped, OWtW undertook ...
          actions to clarify the terms “areas of special interest”, “innovation” and
          “work first”...”

          OIG Conclusion

          We consider this recommendation unresolved because we have not
          reviewed the second and third round grant solicitations. We will consider
          this recommendation closed, after we evaluate these rounds to identify
          whether the changes mentioned in ETA’s response were implemented.

     2.   To safeguard against awarding grants prior to receiving full pre-clearance
          responsibility reviews, we recommend that OGCM/DFA work with SPSU to
          set up a process that will ensure up to date information on applicant
          eligibility.

          Agency Response

          “The ETA has established procedures for conducting pre-award clearance
          reviews of potential grantees and contractors. These procedures, however,
          do not call for obtaining information external to the Department. While we
          can see the benefit for obtaining this additional clearance information,
          adding that aspect to the process will require additional staff time and
          possible legal clarification to ensure that the integrity of the process is not
          compromised.”

          “... SPSU is not asked to create an applicant profile, but rather is asked to
          determine if any information from Federal audits, investigations or
          collection procedures is available which would or could preclude approval
          of an award to an applicant. SPSU then requests those offices listed to

                                         12
     provide any information which might adversely impact ETA’s decision to
     award funds to the applicant.”

     “The ETA will convene a workgroup to re-examine the pre-award clearance
     process. We anticipate that the workgroup would include individuals
     currently engaged in the process, including OIG staff.”

     OIG Conclusion

     We concur with the corrective action of convening a work group to re-
     examine the pre-award clearance process. However, we believe that ETA
     should augment their current system of controls to ensure that all pre-
     clearance information is provided to the Grant Officer before an award is
     given. This recommendation remains open and will be closed pending our
     receipt of ETA’s revised pre-award clearance process and a proposed
     workgroup meeting schedule.

3.   To avoid potential problems with records management, we recommend that
     OGCM/DFA implement a record storage and record tracking system with
     adequate controls. This system should include the following items:
     a)    Retention of the notes of the entire technical review panel
     b)    An electronic tracking system that is capable of allowing multiple
           users to locate specific application files.

     Agency Response

     “The panel report is a composite summary of each review panel member’s
     notes. Once this report has been reviewed and accepted by the Grant
     Officer, there is no need to retain the notes from individual panel
     members.“

     ”ETA agrees that we do not have adequate space for maintaining copies of
     proposals received from non-selected applicants. This number could be in
     excess of 100 applications per solicitation.”

     OIG Conclusion

     We consider the recommendation for record maintenance unresolved for
     the following reasons:

     a) The Federal Records Act, 44 U.S.C. et seq., 3101 mandates all Federal
     agencies must maintain records “... containing adequate and proper

                                 13
             documentation of the organization, functions, policies, decisions,
             procedures, and essential transactions of the agency and designed to
             furnish the information necessary to protect the legal and financial rights of
             the Government and of persons directly affected by the agency’s activities.”
             In addition, The General Records Schedule 3, Procurement, Supply and
             Grant Records, Transmittal 8, December 1998, outlines that unsuccessful
             grant application files (including applications, correspondence, and other
             records related to unsuccessful applications) should be kept for 3 years.
             Although ETA follows the General Records Schedule requirement for
             maintaining the applications and the composite summary for the specified
             period of time, it is mandated in the General Records Act that ETA must
             keep all pertinent information that substantiates why a decision was made.
             This information includes the notes of each individual on the technical
             review panel.

             b) We concur with ETA’s response regarding inadequate space for
             maintaining copies of proposals received from unsuccessful grant
             applicants. This recommendation remains unresolved and will be
             considered closed upon our receipt of a revised procedure for ETA’s
             record storage system.

Contributors

Nigel R. Gardner, Project Leader
Daryll D. Butler
Teserach Ketema, Team Leader

Amy C. Friedlander, Director, Division of Evaluations and Inspections




                                           14
